           Report No. IE-2008-001                January 4, 2008




                      Inspections and Evaluations


              Review of the Investigative Documentation

                        Associated with the Death of

               Army Corporal Stephen W. Castner in Iraq


                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
                            DEPARTMENT OF DEFENSE
                           OFFICE OF INSPECTOR      ENERAl




                                  MISSION STATEMENT




rrlie Office of the Inspector gener4                  cqunta6iEity, ana improvement of
           Department of (])eferi§e                   ap,"-perations to support
                                                         ¥. '....

                  tlie (])epartment's                1i~;pu6Eic interest.
                                                    ~
                                                    .'
                                              ~'V
                                        FOUO

GENERAL INFORMATION
Forward questions or conunents concerning the "Review oflnvestigative Documentation
Associated with the Death of Army Corporal Stephen W. Castner in Iraq" and other activities
conducted by the Inspections & Evaluations Directorate to:

                              Inspections & Evaluations Directorate
                 Office of the Deputy Inspector General for Policy & Oversight
                   Office of Inspector General of the Department of Defense
                                      400 Army Navy Drive
                                 Arlington, Virginia 22202-4704
                                    ~rystalfocus(Q)dodig.nli!


An overview of the Inspector General of the Department of Defense mission and
organizational structure is available at http://www.dodig.mil.


TO REPORT FRAUD, WASTE, AND ABUSE, OR MISMANAGEMENT
Contact the DoD OIG Hotline by telephone at (800) 424-9098, bye-mail at
hotline(dl,dodig.mil or in writing:
                                    Defense Hotline
                                    The Pentagon
                                    Washington, D.C.
                                    20301-1900


REPORT TRANSMITTAL
We are providing this report to the Secretary of the Army for information and use. We
considered management comments to our findings and recommendations in preparing this
final report. The conunents from the Office of the Inspector General, Department of the
Army conformed to the requirements of DoD Directive 7650.3, "Follow-up on General
Accounting Office (GAO), DoD Inspector General (DoD IG), and Internal Audit Reports,"
June 3, 2004. Therefore, additional comments are not required. The complete text ofthe
conunents is in the Management Conunents appendix of this report. The DoDIG Follow-
up/GAO Affairs Directorate will arrange follow-up actions on implementing the report's
recommendations.

                                      [\(~,\n
                                      Wrr: ~r ~ ·~rrison, III
                                      LI'~
                                      Assistant Inspector General
                                     for Inspections and Evaluations




                                         FOUO
         FOUO




Page intentionally left blank




         FOUO
                                       FOUO


Table of Contents
Background                                                                       1

Summary of Results                                                               1

Objectives, Scope, and Methodology                                               2

Issue I : Vehicle Protection                                                     3

Issue 2: Training for Convoy Operations and Convoy Commander's Actions            3

Issue 3: Statements by the Investigating Officer                                 5

Issue 4: Statements by the Staff Judge Advocate                                  7

Administrative Issue-Inappropriate "Revision" of the Classified AR 15-6 Report   9

Summary of Results                                                               10

List of Appendixes

   A. The Honorable F. James Sensenbrenner's Letter to the Acting Inspector
      General-March 30, 2007                                                     11

   B. Chronology of Events Related to the Death of Corporal Stephen W.
      Castner on July 24, 2006                                                   15

   C.                            Letter to the Acting Inspector
        General-March 28, 2007                                                   17

   D. OIG Letter to Congressman Sensenbrenner-May 23, 2007                       29

   E. Management Comments-December 5, 2007                                       31

   F. Report Distribution                                                        33




                                       FOUO
         FOUO




Page intentionally left blank




         FOUO
                                           Fauo
Review of Investigative Documentation Associated with the Death of Army
     Corporal Stephen W. Castner in Iraq (Report No. IE-2008-00l)


Background. The Honorable F. James Sensenbrenner re uested this review on March 30,
2007 (Appendix A), on behalf 0                                    the parents of Corporal
(CPL) Stephen William Castner. CPL Castner died on July 24, 2006, from wounds when the
High Mobility Multipurpose Wheeled Vehicle (HMMWV) in which he was riding as a
gunner was hit by a "hand-wired" improvised explosive device (lED) which used an
explosively formed projectile (EFP). The incident occurred near Tallil, Iraq during a supply
convoy operation from Kuwait to Baghdad. Appendix B is a chronology of events associated
with this matter.

The Deputy Commander of the 336'h Transportation Group, Camp Arifjan, Kuwait,
conducted an Army Regulation 15-6 ~AR 15-6) investigation of the incident. Subsequently,
the Staff Judge Advocate (SJA), 143' Transportation Command, Camp Arifjan, reviewed the
investigation report.

                       obtained a copy of the AR 15-6 report and requested further
investigation into three specific allegations as described in their March 28, 2007 letter to the
Acting Inspector General, Department of Defense (Appendix C).




When attacked on July 24, 2006, the two-mile long convoy was comprised ofthree types of
vehicles: (1) Security vehicles ("gun trucks"-up-armored HMMWVs); (2) Army supply
vehicles driven by US soldiers ("green trucks"); and (3) Army supply vehicles driven by
foreign nationals ("white trucks"). CPL Castner's gun truck was designated B-41 and was
positioned near the end of the convoy.

Summary of Results. Based on our review of the AR 15-6 investigation report and other
appropriate documents and the results of our interviews, we conclude that, although we
identified two administrative issues, the report is sufficient and documents the facts and
circumstances related to this incident. Consequently, there is no basis to reopen the Army's
investigation.

The two administrative issues will be referred to the Office of the Secretary of the Army for
appropriate action. The first issue is the need to ensure the findings within the AR 15-6
investigation are accurate and supported by sufficient evidence. Secondly, we identified an
administrative discrepancy that resulted in two versions ofthe AR 15-6 report-the original

                                                I
                                           FaUa
                                        FOUO
classified version that was provided to~g authority and a revised unclassified
version of the original that was sent t o _ Revising the report was contrary to
preparing classified information for public release. Our report makes three recommendations
to remedy the administrative issues.

With respect to the_request to further investigate specific allegations, we conclude
as follows:

   •   The various commands took appropriate steps to ensure soldiers were provided with
       vehicles possessing a reasonable probability of force protection.

   •   The 180lh Transportation Battalion and its superior commands (up to and including
       Third Army/ARCENT) ensured that their soldiers performing convoy operations
       were trained in accordance with existing Army procedures to properly respond to an
       EFP attack on a convoy. In addition, we concluded that after the lED attack, the
       convoy commander responded in accordance with prescribed procedures and
       exercised appropriate command and control actions.

   •   The Deputy Commander, 336 1h Transportation Group (the AR 15-6 Investigative
       Officer) and the Staff Judge Advocate ofthe 143rd Transportation Command did not
       make false official statements.

Management Comments and OIG Response. The Army had no disagreements with the
findings and recommendations.

Objectives, Scope, and Methodology. As stated in our May 23, 2007 correspondence to
Congressman Sensenbrenner (Appendix D), we agreed to review the Army Re~
(AR 15-6) investigation report concerning CPL Castner's death and respond t o _
questions related to the incident and the investigation report.

We conducted this review between May and November 2007. The review process included
the following steps:

   •   reviewed and compared the classified AR 15-6 investigation report and the AR 15-6
       report that was provided to
   •   reviewed relevant documents and information from other Army components;
       applicable Department of Defense and Department of the Army policies and
       regulations; and the Manual for Courts-Martial;
   •   interviewed seven witnesses, including the investigating officer, the SJA who
       reviewed the AR 15-6 report, the convoy commander, the convoy security element
       commander, two solders in B41 with CPL Castner, and the commander of the 180!h
       Transportation Battalion.

Issue I: Vehicle Protection.

            alleges that the 3361h Transportation Group, the Third Army/Army Central
                                             2
                                        FOUO
                                           FOUO
Command (ARCENT), and a subordinate command "fail[ed] to assure that soldiers were
provided with vehicles having a reasonable probability offorce protection."

Our analysis showed that the various commands took appropriate steps to provide the
soldiers on this mission with vehicles possessing the best protective capability available at
the time of the attack.

Analysis:

The B4l gun truck was equipped with the state-of-the-art HMMWV protection that was
available in-theater at the time of the IED attack. B4l was an "up-armor" Mll14-type
HMMWV with Level I armor, which is integrated armor that is installed during vehicle
production or retrofit and includes ballistic windows. It also had fragmentation kits I and 2
installed and additional cupola protection. These fragmentation kits provided enhanced IED
protection around doors, rocker panels and along wheel wells. The theater command
accelerated the fielding offragmentation kit 1 by 16 months-September 2005 instead of the
planned January 2007. They also accelerated fielding offragmentation kit 2 by 14 months--
February 2006 instead of April 2007. While this configuration could not always defeat a
direct hit from an EFP, it did provide significantly improved protection from the greater
variety of IEDs on the battlefield at the time of the attack. Also, all the gun trucks in the
convoy, to include B4l, were equipped with operational electronic jamming devices. These
devices prevent radio or mobile telephonic detonation of IEDs. Examination of B4l after the
IED attack confirmed that the jamming device was operating at the time of the attack.
However, this jamming device can not defeat a "hand-wired" IED.

Issue 2: Traiuing for Convoy Operations and Convoy Commander's Actions.

             questioned if the l80 'h Transportation Battalion and its superior commands (up
to and including Third Army/ARCENT) "assure[d] that soldiers were trained to properly
respond to an EFP attack on a convoy ...." He also questioned if the convoy commander
acted appropriately in maintaining command and control after the IED attack.
        tll
The l80 Transportation Battalion personnel and the soldiers who executed the convoy
mission were trained to properly respond to an EFP attack on a convoy. Also, based on our
analysis of the documents and interview statements, we conclude that the convoy commander
made appropriate decisions and took appropriate action in accordance with Army doctrine
and standard operating procedures.

Analysis:

The iso" Transportation Battalion (180 ' h) consisted of several organizational elements,
including mobilized National Guard companies. One of the assigned National Guard
companies-"A" Company, 3151 Forward Support Battalion (Al3l )-ran the supply convoy
on July 24, 2006. Al3l completed pre-deployment training at Camp Atterbury, Indiana,
receiving the same training that CPL Castner's unit received at Camp Shelby, Mississippi.
All of the iso" units, to include Al3l, were trained to conduct convoy operations and to react

                                                3
                                           FOUO
                                          FOUO
to an lED attack in accordance with established procedures. The First Army documented this
training. Additionally, the 180tl1 and Al31 had been in-theater running convoys for over 10
months prior to July 24, 2006. They had accumulated over 20 million convoy-miles (miles x
the number of vehicles in the convoy) of experience prior to the attack on B41.

We reviewed Army doctrine and training for tactics, techniques and procedures for
conducting convoy operations in Iraq. Convoy training includes simulated exercises and
drills to teach soldiers and demonstrate the proper response when confronted with enemy
contact, including lED attacks. These battle drills stress that the first requirement when
ambushed is to maintain the movement ofthe convoy and quickly proceed through the
contact point in order to reduce exposure and deny the enemy the ability to engage the
convoy effectively.

Consistent with standard convoy procedures, when B41 was attacked, the convoy continued
through the attack zone as quickly as possible. Concealed in a cloud of smoke and dust, and
unobserved by those vehicles in trail, the damaged B-41 veered off the road and into a marsh,
where it came to rest in the water and among the tall reeds.

Based on our analysis ofthe documentation and witness statements, the convoy commander
was not aware of the status ofB4l immediately after the lED attack. The convoy was
approximately two-miles long traveling at the prescribed speed and with appropriate vehicle
intervals to minimize bunching, a prescribed tactic to enhance force protection. The convoy
commander was positioned near the front of the convoy. B41 was positioned near the rear of
the convoy. According to witness statements, the lED blast created a large cloud of dark
smoke and dust that obscured the highway and B41. The movement of the convoy and the
nature of the blast prompted the occupants of green truck 117, the vehicle immediately
behind B41, to believe erroneously that they were the target of the attack. Therefore, they
made a radio call on the internal convoy communications network announcing the lED attack
and that they were undamaged and proceeding forward,

The convoy commander and the crews in all the "green" supply vehicles and the gun trucks
monitored the convoy communications network. After the remainder of the convoy transited
the attack area, the occupants in the gun truck that was at the end of the convoy (and about
eight vehicles behind B41) reported over the radio network that all vehicles were clear-a
judgment based on their observation that no wrecked or damaged convoy vehicles were on or
beside the highway. In a stressful combat environment, initial post-attack reports can be
confusing or wrong--even when the best-trained combat units are involved. Shortly after the
last vehicle cleared the attack area, green truck 117 noticed and announced over the radio that
B41 was no longer in front of them.

Given the initial information transmitted by green truck 117, the convoy commander,
consistent with doctrine and training, ensured the convoy was well clear of the attack zone,
stopped the convoy and secured it, confirmed that B41 was unaccounted for, and returned to
the lED attack site with security and medical help. Based on the reconstruction of the time
line (see Appendix B), approximately 15 to 20 minutes elapsed from the time of the lED


                                               4
                                          FOUO
                                           FOUO
attack until the convoy commander located B41 in the marsh and initiated medical assistance.
Approximately 5 minutes thereafter a medical evacuation was requested.

The convoy commander reacted appropriately in maintaining command and control after the
lED attack. He was well qualified for this mission. The 180'h commander rated the convoy
commander as number 6 out of 50 convoy commanders with regard to experience and
proficiency. Prior to the attack, the convoy commander had led 16 convoys and logged over
549,048 convoy miles. Additionally, the 180'h commander accompanied the convoy
commander on at least two occasions and had found no fault with his judgment, tactics,
techniques, or procedures.

Issue 3: Statements by the Investigating Officer.

_ _ alleged the Deputy Commander of the 336'h Transportation Group, the
investigating officer, made a false official statement in the AR 15-6 report of investigation
with respect to how the members of the convoy responded to the lED attack.

Applying the Manual for Courts-Martial criteria for characterizing a false official statement,
we conclude that the AR 15-6 investigating officer had no intent to deceive and therefore, did
not make a false official statement. We did, however, identify some inaccurate statements in
the report, but those statements did not affect the investigation's overall conclusions about
the incident.

Analysis:

The Deputy Commander of the 336'h Transportation Group was the AR 15-6 investigating
officer.         alleges that:




In considering               allegation, we reviewed (I) both versions of the AR 15-6
investigation-the original classified version and the version that was sent to            (2)
witness statements that were part of the AR 15-6 investigation; (3) testimony we obtained
from witnesses; and (4) Article 107-"False official statements," under the Manual for
Courts-Martial (MCM).

To substantiate an allegation of "false official statement," Article 107 of the MCM requires
that all of the following elements must be proven:



                                                5
                                           FOUO
                                           FOUO
       1. That the accused signed a certain official document or made a certain official
         statement;

       2. That the document or statement was false in certain particulars;

       3. That the accused knew it to be false at the time of signing it or making it; and

       4. That the false document or statement was made with the intent to deceive.

The AR 15-6 report _ _received does not state that the convoy commander radioed
each gun truck immediately after the lED attack. The report documents "[o)riginal radio
reports stated that all gun trucks were mission capable, but then truck 117 called in that gun
truck B41 was not in front of them anymore and radioed the report to the rest ofthe convoy."
The AR 15-6 report that was submitted to the appointing authority states: "[0 )riginal radio
reports stated that all gun trucks were' green,' but then truck 117 called in that gun truck B41
was not in front of them any more and radioed the report to the rest of the convoy."

Our analysis concludes that the AR 15-6 statements at issue are not accurate in light of the
evidence we reviewed. Specifically, the witness statements do not support the AR 15-6
finding that original radio reports stated that all the gun trucks were either "mission capable"
or "green." The witness statements indicate that internal convoy radio reports immediately
after the lED attack focused on the status of the supply trucks (i.e., the green trucks and the
white trucks) and not the gun trucks. For example, we noted that one witness who was the
driver of the lead green truck in the convoy stated "[a)fter the blast all of the 31st elements
[i.e., the Army supply vehicles) called up that they were green." A careful reading ofthe
witness statements taken by the AR 15-6 investigating officer indicates that he erroneously
attributed witness observations or comments regarding the status of the supply trucks with
the status of the gun trucks. This erroneous conclusion was further supported by statements
that the gun buck at the rear ofthe convoy radioed that all trucks were clear of the attack site,
which included both Army supply trucks and gun trucks.

Collectively, the witness statements adequately captured the events following the lED attack.
However, as one might expect, when recalling the details of a combat engagement, each
individual statement reflects the stress and confusion ofthe moment and the different
perspectives of witnesses, depending upon where individuals were in the convoy and what
communications they recall hearing. The evidence we reviewed and obtained does not
indicate that the convoy commander radioed each gun truck after the lED attack. Rather, we
believe the facts reflect that the convoy commander was monitoring the internal convoy
communications network and, following the lED attack, had believed that all convoy
vehicles were clear, based on the information communicated by green truck 117-the
assumed target of the lED attack-and information from the last gun truck in the convoy that
reported all vehicles were clear

We found no basis to conclude that the inaccurate statements were made with intent to
deceive or cover up or conceal facts. Instead, the inaccurate statements were the result of the


                                                6
                                           FOUO
                                           FOUO
investigating officer attempting to characterize the witness statements as reported during the
first stressful moments after the attack.

Recommendation 1: The Secretary of the Army take appropriate action to ensure that
findings within AR 15-6 investigations are accurate and supported by sufficient evidence.

Issue 4: Statements by the Staff Jndge Advocate.

_ _ alleged the Staff Judge Advocate (SJA) ofthe 143d Transportation Command
made a false official statement in his legal review of the AR 15-6 report of investigation. We
did not substantiate this allegation.

Analysis:

            alleged that the SJA made the following four false official statements within the
SJA's legal review memorandum of the AR 15-6 report of investigation:

        I. "Any person suffering these wounds, given the type of lED used, and the time it
           took to extradite (sic) SPC Castner from the vehicle, created an inevitable result
           no matter what level of care was provided."

        2. "Based on the autopsy report, SPC Castner was beyond the point of saving by the
           time the MEDAVAC (sic) flight arrived."

        3. "The soldiers at the scene reacted lAW their training ...."

        4. "The findings [in the AR 15-6 report] are consistent with, and supported by,
           substantial evidence."

SJA Statements 1 & 2: _ _ believes that statements made by the physician who
performed the autopsy on CPL Castner prove that statement I is false and statements made
by the Army medic who treated CPL Castner during the medical evacuation (MEDEVAC)
helicopter flight prove statement 2 is false.

The Armed Forces Institute of Pathology (AFIP) medical examiner who performed CPL
Castner's autopsy, in his preliminary autopsy report, noted the cause of death as "multiple
ballistic injuries." The AFIP medical examiner's preliminary autopsy diagnosis (PAD) listed
the following five groups ofCPL Castner's wounds:

        1. Ballistic injury ofthe left thigh;

        2. Multiple (approximately 14) superficial and deep penetrating shrapnel injuries of
           the left buttock;




                                                7
                                           FOUO
                                          FOUO
       3. Multiple (approximately 25) superficial and deep penetrating shrapnel injuries of
          the posterior aspect of the left thigh;

       4. Multiple (approximately 13) superficial and deep penetrating shrapnel injuries of
          the posterior aspect of the right thigh; and

       5. Other injuries.

With respect to the ballistic injury of the left thigh, the AFIP medical examiner's PAD noted
injuries to the left profunda femoris artery and left medial circumflex femoral artery.

While conducting his investigation, the AR 15-6 investigating officer asked the AFIP
medical examiner bye-mail "Did [CPL Castner] loose all his blood in the 20 minutes while
he was in the water (no large amounts of blood was seen)?" The medical examiner replied:




The MEDEVAC medic who treated CPL Castner on the helicopter noted in his Patient Care
Report:




We note that SJA statement 1 essentially restates the opinion of the investigating officer, as
stated in the classified AR 15-6 report. Based on our interview with the SJA, statement 2
was the SJA's opinion derived from the evidence presented in the investigation report. We
found no evidence suggesting that the SJA made the statements with the intent to deceive.
Lacking intent, there is no basis to conclude that statements I and 2 were false official
statements.

SJA Statement 3: Because~elieves the actions of the soldiers following the lED
attack were not in accordance with their trainin he aIle es that SJA statement 3 is false.
Specifically,             asserts " ...


                                               8
                                           FOUO
                                           FOUO

The facts do not support this assertion. As we discussed in Issue 2 above, the evidence
shows that the soldiers in the convoy reacted appropriately to the lED attack, consistent with
their training. The facts do not support the assertion that the occupants of B41 were
abandoned by their fellow soldiers. Therefore, there is no basis to conclude that statement 3
is a false official statement.

SJA Statement 4: With the exception of the factual inaccuracy discussed in Issue 3 above,
we believe the AR 15-6 report adequately reflects the facts and circumstances regarding the
lED attack. Therefore, there is no basis to conclude that statement 4 is a false official
statement.

Administrative Issue-Inappropriate "Revision" of the Classified AR 15-6 Report.

The Army provided a revised version of the AR 15-6 investigation report to
which differed from the version sent to the Commander of the 336 th Transpo~,
the appointing authority. The revisions in the copy of the report provided t o _ h a d
no impact or affect on the findings and conclusions of the AR 15-6 investigative report.

Analysis:

The Army provided an unclassified version ofthe AR 15-6 investigation report t o .
_       which differed from the classified version sent to the Commander of the 336 th
Transportation Group, the appointing authority. Examples of changes included:

    •   an opinion statement by the investigating officer regarding Corporal Castner's
        prognosis was eliminated;
    •   acronyms and military identifiers and terminology were either spelled out or were
        replaced with a narrative description;
    •   amplifying or explanatory information was inserted in several paragraphs;
    •   certain operational details, potential security-sensitive or classified information were
        either deleted or replaced with narrative that was deemed acceptable for public
        disclosure; and
    •   editorial or formatting changes were made.

According to Army officials we interviewed, the version of the report sent to _ _
was an administrative attempt to provide a report that would assist him, as a civilian, to better
understand the facts and circumstances surrounding the death of his son, while safeguarding
~or classified matters. Also, based on our review, the version of the report sent to
_ d i d not affect the findings and conclusio~rt. However,
notwithstanding these points, the version provided to_should have been a
redaction of the original report.

There are Department of Defense policies governing redaction of classified reports for public
release. For example, in his July 2005 memorandum, "Policy and Procedures for
Sanitization of Department of Defense (DoD) Classified or Controlled Unclassified

                                                9
                                           FOUO
                                          FOUO
Information Prior to Public Release," the Under Secretary of Defense for Intelligence states
that sanitization of hard copy documents should be made by physically removing information
with an exacto-style knife or using black-out or tape over the information and then
photocopying the document.

Although the administrative effort to improve readability of the original report for non-
military readers may have merit, such a practice is contrary to DoD policy and could invite
confusion and misunderstandings when compared to the official classified version.

Recommendation 2: That the Secretary of the Army take appropriate action to ensure that
Army organizations release AR 15-6 reports in accordance with DoD and Department of the
Army policies and regulations.

Recommendation 3: That the Commander, Third Army, provide _ _ a properly
redacted copy of the AR 15-6 report that was provided to the appointing authority.

Management Comments. The Army had no disagreements with the recommendations.
They did note that the Preliminary Autopsy Report, conducted by the Armed Forces Institute
of Pathology, listed CPL Castner's date of birth incorrectly. We contacted the Armed Forces
Institute of Pathology (AFIP) and confirmed that the final autopsy report had the correct date
of birth.




                                              10
                                          FOUO
                                                               FOUO
Appendix A: The Honorable F. James Sensenbrenner's Letter to the
Acting Inspector General-March 30, 2007


   f. JAM~S ~~t>1,';"N"6RENNOf!.Jj\,
                                                                                                                   R""u2o\<!l
        f""'llI'OtlIlI:T.WUl"""'''~
                                                                                                         tt..~.u""'I1C1<J~OffV:.llu,<O<>o"
                                                                                                           W.<S><"'=... DC~H
                                                                                                                  102'-~~101


                                                                                                                 OO!i'mll;fO""""
                                                                                                           110 1I",,,,,~a W"V, RoOM \SO




                                                                                                                  _.-
                                                                                                           an"""""",,,Wl530GS-&ll

                                               ([,(lugreslj (If tDe murre'iJ ~tateiJ                              2~·1&4-1111


                                                                                                           Ovn'O<; ~ ..w.,,",,,,   !<In".
                                                     1li!omJe of ~telleJltati\leli                               l..a1Kl4.z.-11'~


                                                    llilImJ1Jington, l»l!L 20515-4905



                                                             March 30, 2£)01




                     Mr. Thomas F. Ghnble
                     ActingInspector General
                     United States Department of Defense
                     400 Anny-Navy Drive;Room1000
                     Arlington VA 22202
                         Attn: iiiiiiiilllllllCongressionai Liaison
                     VIAFAX~
                     Re:                                    on behalfoftheir deeeasedson, Stephen w: Castner



                     Dear M>-. Gimbel:

                     1 am writing on-behalf afmy constituents who have askedfer my involvement in the
                     investigation of thedeath of their son, CPL Stephen W. Castner, who was killed in Iraq in
                     July, 2006.                equest that the Office of
                     Defensereviewmeallegedviolationsas described b
                                                                           4ectorGeneralof theDepartmentof
                                                                                        in the MtaChed
                     correspondence.

                      I would appreciate if you would please review and consider these concerns and provide me
                      with a writtenresponse.




                                       .:r:
                      All correepcadence maybe forwardedto my District Office.120Bishops Way.#154.
                      Brookfield, WI 53005.If youhave any questions. please feel free to contar i •               ill
                      my Distriet ore", at 26Z-784-1111.
                      Thank you                       w ith this matter.

                           Y,
                       Sinoqrel
                                           .                ~

                       F.r             S   SENBRENNBR,JR-,




                                                                      11
                                                                FOUO
FOUO




 12
FOUO
FOUO




 13
FOUO
         FOUO




Page intentionally left blank




             14
          FOUO
                                        FOUO
Appendix B: Chronology of Events Related to the Death of Corporal
Stephen W. Castner on July 24, 2006


    • April 22 - June 30, 2006: CPL Castner's unit, 1/121 Field Artillery (FA), trained
    at Camp Shelby, MS. In addition to individual training, the unit trained to provide
    convoy support/protection for operations in Iraq using High Mobility, Multi-purpose
    Wheeled Vehicles (HMMWVs) as gun trucks.

    • July 13, 2006: The Commander of 3d Brigade, 87th Division (Training Support),
    First Army validated 1/121 FA as trained and ready to deploy.

    •   July 19,2006: CPL Castner arrived in Kuwait, along with elements of 1/121 FA.

    • July 24, 2006: While conducting a convoy operation on Main Supply Route (MSR)
    TAMPA near Tallil, Iraq, CPL Castner's gun truck was attacked by a hand-wired
    Improvised Explosive Device (IED) that used an Explosively Formed Projectile (EFP).
    The times below are an approximation based on a review of witness statements and
    Tactical Operations Center Movement Tracking System (MTS) logs, and other
    documents.

         - 12:59 pm: An EFP struck CPL Castner's up-armored HMMWV gun truck (call
    sign B41). Because of the dust and smoke from the IED explosion, the Army supply
    truck (green truck) 117 behind B41 did not see it veer off the right side of the road and
    into a marsh with high reeds. Believing the IED attack was aimed at their vehicle, the
    crew of the supply truck reported "No damage" and the convoy keeps moving. Shortly
    thereafter, the gun truck at the rear of the convoy radioed that all trucks were clear of the
    attack site, which included both Army supply trucks and gun trucks.

         - 1:0I-I :05 pm: Initial reports that B41 is missing.

        - 1:09 pm: Having exited the attack zone, the convoy commander halted the 3.4
    kilometer (2.1 miles) long convoy and confirmed that B41 was missing.

         - Between 1:14 and 1:19 pm: The convoy commander located B41, which was
    partially concealed by high reeds, and the wounded crew. Trained Combat Life
    Savers/Emergency Medical Technicians, who were paramedics in their civilian careers,
    began treating the wounded, to include CPL Castner.

        - 1:25 pm: A MEDEVAC helicopter was requested, via radio. This request was
    forwarded to the MEDEVAC unit and received by that unit at I :33 pm.

         - 1:55 pm: The MEDEV AC helicopter arrived at the attack site.

        - 2:05 pm: The MEDEVAC helicopter arrived at the Combat Support Hospital
    (CSH) with the wounded, to include CPL Castner.
                                            IS
                                         FOUO
                                  FOUO



    - 2:53 pm: CPL Castner was declared deceased.

• July 28, 2006: The Deputy Commander, 336 th Transportation Group was
appointed as the Army Regulation (AR) 15-6 investigating officer, by the 336 th
Transportation Group Commander.

• August 8, 2006: The investigating officer completed the AR 15-6 investigation
report.

• August 10,2006: The 143'd Transportation Command (Forward) Staff Judge
Advocate completed the legal review of the AR 15-6, concluding that the findings
were consistent with, and supported by, considerable evidence and that the
recommendations were consistent with the findings. He found no legal objection to
the AR 15-6.




                                      16
                                  FOUO
FOUO
       Letter to the Actin




 17
FOUO
FOUO




 18
FOUO
FOUO




 19
FOUO
FOUO




 20
FOUO
FOUO




 21
FOUO
FOUO




 22
FOUO
FOUO




 23
FOUO
FOUO




 24
FOUO
FOUO




 25
FOUO
FOUO




 26
FOUO
FOUO




 27
FOUO
         FOUO




Page intentionally left blank




             28
          FOUO
                                                  FOUO
Appendix D: OIG Letter to Congressman Sensenbrenner May 23. 2007



                                           INSPECTOR GENERAL
                                           DaPAATMENT OF DEFENSE
                                            400 ARMY NAVY DRIVE
                                      ARL.INGTON. VIRGINIA '22202-4704

                                                                                    MAY23 lOW

           The HonorableF. James Sensenbrenner, Jr.
           Representativein Congress
           Suite 154
           120 Bishops Way
           Brookfield, WI 53005-6249

           Dear.Representative Seasenbrenuer:



           ~
                       . .                etoyourletter dated March 30, 2007, onbeha1fof
                                            the parents of COIPOrai (CPL) Stephen William
           Castner. CPL Castner died on     y 24, 2006, from wounds suffered when the Humvee in
           which he was riding was hit by a "hand-wired Explosively Fanned Projectile (EFP)."
           The incidentoccurred nearTallil, Iraq while CPL Castner was part of a convOy enroute
           from Kuwait to Baghdad, Iraq. The incident was subsequently investigated underan
           Army Regularlon15-6 (AR 15-6) Investigation conducted by the Deputy Commander of
           the 336th TransportationGroup. Camp Arifjan, Kuwait, and subsequentlyreviewedby
           the Staff JndgeAdvocate (SJA) ofthe 143rd Transportation Command,CampArifjan.

                 . .1111!• • • • • obtained a copy of the.AR 15-6 investigationandrequested
           that furtherinVestigation be conductedinto allegations ofa failure19assure that soldiers
           were provided with vehicleshaving a reasonable probability offorce protection, a failure
           to assure that soldierswere trained to properly respond to anEFP attackon a convoy.and
           allegations of'false official statements regarding the AR 15-6 investigation.

                   On April 9. 2007.we advised you that we had referred your inquiry to the
            Department of the AImy. However, upon furtherdiscussions with the Department of the
            Army and the U.S" CentralCommand,we have determined that our Office of the Deputy
            luspeetor Genend for Policy and Oversight, would best be able to rsviewthc AR 15-6
            investigation and address the allegations raised b

                   We plan to initiate our review in the near future and will keep you apprised of our
            efforts. Shouldyon have any questionsregarding this matter, please contactme at (703)
            604'8324.

                                                       Sincerely,




                                             Assi
                                        Communi
                                                  ~           ~
                                                   t Inspector General
                                                  us and. Congressional Liaison




                                                         29
                                                    FOUO
     FOUO




Page intentionally left blank




         30
      FOUO
                                            FOUO
Appendix E: Management Comments




                                   DEPARTMENTOF THE ARMY
                               OFFICE OF THE INSPECTORGENERAL
                                     1700 ARMY PENTAGON
                                  WASHINGTON. DC 20310·1700

          REPLY TO
          ATTENTION OF

          SAIG-ZXL                                                          12 December2007


          MEMORANDUM      FO~ DoDInspector General, 400 Army NavyDrive,
          Arlington, VA 222024704

          SUBJECT: Requestfor InspectorGeneral Records for Official Use -
          SPC StephenW. Castner


          1. The InspectorGeneral has approved release CJf the enclosedmemo for incorporation
          into your final DoD report concerningSPC Stephen W. Castner.

          2. If you haveany questions concerning this matter, please contae            or me
          at (703)601        If you call, be sure to provide the FOUO case number 08·136 that
          we have assigned to your request.

          FOR THE INSPECTORGENERAL:




          Ene!




                                                  31
                                             FOUO
                                FOUO




                            DEPARTMENT OFTHEARMY
                             OFfICl!!OFlllEIHWlCTORGENMAl.
                                  1700AIUlY PIiNTAGON
                                WASMIIIGTOKot 2031Cl-17'Oll


                                                              5 December2007


MEMORANDUM FORInspectorGeneral. D~rartment of Defenoo, 400Anny Navy
Drive, Arlington, Virginia 22202-4704, ATT

SUBJECT: ReviewGfInvestigative Documentation Associated withthe Deathof Army
Corporal Stephen W. CastnerIn Iraq(ReportNo,IE 2008-XXX)
                                                       M




1. Wehavereviewed the Investigative Documentation concerning the deathof
spe Stephen W. Castnerand have no disagreements INith the findings.

2. Wenoted thattheArmed F~s Institute of Pathology medical examiner that
peEfDmlad SPOCastner's Autopsy, In his Preliminary AutopsyReport, listed
specastner's birth date as 16 December 19S1. SPC Castner'. actual birth data wee
15 09C8mber1978.

3. ThePOCls'~ll~~~~Ji




                                        32
                                FOUO
                                           FOUO
Appendix F       Report Distribution

The Secretary of the Army

Office of the Secretary of the Army
The Inspector General, U.S. Army Inspector General Agency

Office of the Secretary of the Navy
Naval Inspector General
Inspector General of the Marine Corps

Office of the Secretary of the Air Force
Secretary of the Air Force, Office ofthe Inspector General

Department ofthe Army
Commander, Third Army
Commander, 336 th Transportation Group, 88th Regional Readiness Command
Commander, l43d Sustainment Command (Expeditionary)

Commander, U.S. Central Command
Inspector General, U.S. Central Command

The Honorable James F. Sensenbrenner, Jr.

Congressional Committees and Subcommittees, Chairman and Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations




                                               33
                                           FOUO
                                           FOUO



The Mission of the OIG DoD



The Office of the Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs, and operations to support the Department's mission
and to serve the public interest.




Team Members



The Joint Operations, Defense Agencies, and Service Inspectors General Division, Inspections
and Evaluations Directorate, Office of the Deputy Inspector General for Policy and Oversight,
Office of the Inspector General for th~efense prepared this ~ Personnel
who contributed to the report include~Division Chief, and _
_ _Associate General Counsel.




Additional Report Copies



Contact us by phone, fax, or e-mail:
 Inspections and Evaluations directorate, Deputy Inspector General for Policy and Oversight
 COM: 703.604'-CDSN664_
 FAX: 703.604_
 E-MAIL: fm!<ilfocus(iV.dodig.mil
 Electronic version available at: wwyv.do_qjg,1)1jljl1Jsl'~.QtiQmL!E/Reports




                                               34
                                           FOUO
DEPARTMENT OF DEFENSE



hnt
I I V l.
